• !

!

No.

8?

3n 55c

f

Supreme (£ourf Of 55c Hniteb Stated

":r;j?zx

EDWARD LEE MULCAHY, PhD, pro se
Petitioner;
v.
ASPEN PITKIN COUNTY HOUSING AUTHORITY (“APCHA”)
Respondent.

On Petition for Writ of Certiorari
To The Colorado Court of Appeals

PETITION FOR WRIT OF CERTIORARI

EDWARD LEE MULCAHY, PH.D., Pro Se
53 Forge
Aspen, CO 81611
(970)429-8797
leemulcahvphd@gmail.com

i

QUESTION PRESENTED
1. Did the District Court violate Mulcahy’s constitutional rights by denying
Defendant-Petitioner Edward L. Mulcahy, Jr.’s (“Mulcahy”) C.R.C.P. 60(b)
motion to vacate the underlying judgment for procedural due process violations
where the underlying judgment severely impacts Mulcahy’s property rights by
ordering him to sell his house and home; where, in obtaining the judgment,
Plaintiff-Respondent Aspen Pitkin County Housing Authority (“APCHA”)
disregarded almost every single procedural requirement in state court designed to
ensure fair litigation practices, including improperly electing into the C.R.C.P.
16.1 expedited procedure, failing to serve orders on Mulcahy that would have
apprised him of case management procedures, failing to serve discovery
disclosures of any kind on Mulcahy, and failing to file a certificate of compliance
with the court; and, further compounding these issues, where the District Court
itself failed to follow-up or otherwise ensure procedural requirements were being
met before entering early summary judgment in APCHA’s favor?

ii

LIST OF PARTIES
All parties are listed in the caption.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the petitioners
has a parent corporation or shares held by a publicly traded company.

iii

TABLE OF CONTENTS

1

QUESTIONS PRESENTED

LIST OF PARTIES

ii

TABLE OF AUTHORITIES
OPINIONS BELOW
STATEMENT OF JURISDICTION

5
6

CONSTITUTIONAL PROVISIONS INVOLVED
STATEMENT OF THE CASE

6
7

I. APCHA IMPROPERLY FILES THIS ACTION AND DISREGARDS EARLY
ORDERS OF THE COURT DESIGNED TO APPRISE DEFENDANTS OF THEIR
RIGHTS AND OF CASE PROCEDURES
7

B. APCHA GOES ON TO DISREGARD ALMOST EVERY OTHER PROCEDURAL
COMPONENT OF C.R.C.P. 16.1 AND THE DISTRICT COURT FAILS TO
12
FOLLOW-UP OR ENFORCE THEM
REASONS FOR GRANTING THE WRIT.

17

IV

I. CERTIORARI IS APPROPRIATE BECAUSE THIS CASE DEALS WITH
IMPORTANT MATTERS OF NATIONAL INTEREST - PARTICULARLY MINIMUM
DUE PROCESS STANDARDS FOR COURT PROCEDURES AND PRO SE
PARTIES
17

CONCLUSION

22

APPENDIX
APPENDIX A
March 6, 2019 Case 2015CV30150 District Court, Pitkin County,
Colorado order on defendant Mulcahy’s motion to vacate
In plaintiffs favor

App. 1

APPENDIX B
December 9, 2019 COLORADO SUPREME COURT No. 19SC692
(Court of Appeals Case No. 19CA699 still pending) Petition for Writ
Of Certiorari DENIED. EN BANC

App.23

V

TABLE OF AUTHORITIES
CASES
E.S.R. v. Madison County Department ofHuman Resources, 11 So.3d 227 (Ala.
Civ. App. 2008)

11

First National Bank of Telluiide v. Fleischer, 2 P.3d 706 (Colo. 2000)

10

Jaxon v. Circle K Corp., 773 F.2d 1138 (10th Cir. 1985)

,4

Omer v. Shalala, 30 F.3d 1307 (10th Cir. 1994)..............

12

Petition R.A.M. v. for the Adoption ofB.G.B., 2014 COA 68 (Colo. App. 2014)...4
Rael v. Taylor, 876 P.2d 1210 (Colo. 1994)......

10

Wagner v. Wagner, 299 P.3d 170 (Alaska 2013)

11

Whiteside v. Smith, 67 P.3d 1240 (Colo. 2003).

7

Other Authorities
Jason Auslander, Assistant attorney picked as newjudge, THE ASPEN TIMES, Sep. 16,
2015, available at https://www. aspentimes.com/news/assistant-attomeypicked-as-new-judge/
2
Rules

C.R.C.P. 16
C.R.C.P. 16.1
C.R.C.P. 60(b)

.4
,3, passim
8,9,13

CONSTITUTIONAL PROVISIONS
U.S. Constitution, Fifth and Fourteenth Amendments

1,2

1

PETITION FOR WRIT OF CERTIORARI
Lee Mulcahy respectfully petitions for a Writ of Certiorari.

OPINIONS BELOW
Mulcahy appeals the District Court’s denial of his C.R.C.P. 60(b) motion to vacate the
underlying judgment for due process violations in District Court. The order denying
Mulcahy’s C.R.C.P. 60(b) motion is found at Appendix A. There is no Court of Appeals
opinion as Mulcahy filed this petition pursuant to C.A.R. 50 with the Colorado Supreme
Court, before the Court of Appeals has rendered a ruling. The denial of my writ of
certiorari by the Colorado Supreme Court is unreported and found at B.

STATEMENT OF JURISDICTION
The Colorado Supreme Court denied the petition for writ of certiorari on December,
2019. The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amend. V, which in pertinent part, provides: “No person shall be ...
nor be deprived of life, liberty, or property, without due process of law;....”

2

U.S. Const. Amend. XIV, § 1, which in pertinent part, provides: “No State shall...
deny to any person within its jurisdiction the equal protection of the laws.”

STATEMENT OF THE CASE
I. APCHA IMPROPERLY FILES THIS ACTION AND DISREGARDS EARLY ORDERS OF
THE COURT DESIGNED TO APPRISE DEFENDANTS OF THEIR RIGHTS AND OF
CASE PROCEDURES
APCHA, the entity responsible for enforcing the City of Aspen and Pitkin County’s
affordable housing program, filed this lawsuit in December 2015 seeking an order from
the District Court forcing Mulcahy to sell his house and home based on his alleged failure
to exhaust administrative remedies. [CF, pp. 1-20, 1404-21 (Complaint and attached
exhibits)].
Specifically, APCHA asserted it was entitled to judgment as a matter of law
because Mulcahy had failed to timely request a hearing with APCHA in response to a
Notice of Violation (“NOV”) alleging deed restriction violations and, accordingly, asserted
Mulcahy had failed to exhaust his administrative remedies and that the District Court
could consider none of Mulcahy’s defenses. [CF, pp. 16-19, 99 (Complaint and summary
judgment motion)].
The case was assigned to District Court Judge Seldin, who had been appointed to
the bench only a month prior. [Jason Auslander, Assistant attorney picked as newjudge,
The

Aspen

Times,

Sep.

16,

2015,

available

https://www.aspentimes.com/news/assistant-attomey-picked-as-new-judge/

at

(indicating

3

Judge Seldin began his judgeship November 1, 2015)]. Mulcahy, unable to afford a
$20,000 retainer at the time, acted pro se in the District Court proceedings through the
rendering of a summary judgment order in APCHA’s favor. [CF, p. 127 IP 26].
With respect to the procedural components of the case, APCHA’s disregard for
state court procedural requirements began almost immediately as, in filing the lawsuit,
APCHA opted into the C.R.C.P. 16.1 expedited procedure despite its own filings
indicating that the property in question was clearly valued well over $100,000; that is,
above the C.R.C.P. 16.1 cutoff. [Compare CF, pp. 1402, 1404 (Civil Case Cover Sheet
electing into C.R.C.P. 16.1 and deed attached as Exhibit A to the Complaint indicating
Mulchy had purchased the undeveloped property from APCHA in 2006, approximately 10
years prior to the lawsuit, for $150,0001), with C.R.C.P. 16.1(b)(2) (indicating 16.1 is not
proper if “the value of [a] party’s claims against one of the other parties is reasonably
believed to exceed $100,000”)].
Similarly, soon after APCHA filed its Complaint in December 2015, the District
Court entered a Delay Reduction Order containing early procedural information
regarding the case; including specific information about when a case management
conference should be set and directing APCHA, as a represented plaintiff and the
responsible party, to set one. [CF, p. 21 If 2]. The Delay Reduction Order also directed
APCHA to serve a copy of the order on any parties that do not enter an appearance
electronically, such as pro se parties. [CF, p. 21 If 5]. Despite the order explicitly directing

l

Notably, the value of the property has only gone up since 2006 as, pursuant to
requirements for receiving the property, Mulcahy developed and built his home on the
lot. [SeeCF, p. 123 If 4],

4

it to, APCHA never served the order on Mulcahy and Mulcahy was left unapprised of
when to expect a case management conference or who was responsible for setting one.
[CF, p. 980 ]f 2 (Mulcahy affidavit)].
Importantly, the Colorado Rules of Civil Procedure mandate - for both expedited
procedures under C.R.C.P. 16.1 as well as normal procedures under C.R.C.P. 16 - that a
presiding court must set and hold an in-person case management conference where a
party is pro se. [C.R.C.P. 16.1(j) (“If any party is unrepresented . . . the court shall set a
case management conference.”) (emphasis added). See also C.R.C.P. 16(d) (also
mandating a case management conference if any of the parties are unrepresented)].
APCHA never set a case management conference and, similarly, the District Court never
followed up on the mandate of C.R.C.P. 16.1(j) and set one of its own accord. A case
management conference was never held.
Notably, the purpose of the mandate to hold a case management conference
where a party is unrepresented is clear, it’s so the presiding court can speak with the pro
se party; ensure the pro se party is apprised of his rights; ensure the pro se party is, at a
minimum, aware of which procedural rules apply; and, moreover, ensure any opposing
parties, especially those that are represented, are honoring their obligations and not
taking advantage of the pro se party. [See generally Petition R.A.M. v. for the Adoption of
B.G.B., 2014 COA 68 at If If 7, 43-44 (Colo. App. 2014) (discussing, in light of a due process
analysis, the importance of a court advising a pro se father in an adoption proceeding “of
the nature of the hearing, what the court must determine, the burden of proof, and
[asking whether the father] understood”); Jaxon v. Circle K Coip., 773 F.2d 1138, 1140

5

(10th Cir. 1985) ("The rights of pro se litigants require careful protection where highly
technical requirements are involved .... District courts must take care to insure that pro
se litigants are provided with proper notice regarding the complex procedural issues
involved”) (citations and quotations omitted)].
With no case management conference held, the District Court never went over the
unique case procedures of C.R.C.P. 16.1 with Mulcahy; never ensured he was even aware
that C.R.C.P. 16.1 had been elected into; never gave Mulcahy the opportunity to elect out
of C.R.C.P. 16.1 given the value of the property at issue; and never explained that early
discovery disclosures, including APCHA’s, are especially critical in C.R.C.P. 16.1
proceedings as initial disclosures, in effect, represent the full discovery of the case. [See
C.R.C.P. 16.1(a)(2), (k) (2015) (indicating that the normal discovery mechanisms do not
apply and the rule requires early, full disclosure of discoverable information)].
Indeed, Mulcahy’s filings through the District Court proceedings reflect this as he
clearly did not understand the complexity of such procedures, nonetheless that special
procedures of C.R.C.P. 16.1 applied. In particular, in April 2016, and weeks after a case
management should have already been held, Mulcahy filed a motion to amend his Answer
indicating he was still expecting a case management conference to occur along with a
trial. [CF, p. 165 If 12 (Mulcahy requesting leave to amend his Answer because “the case
has not progressed substantially toward trial [and] a case management conference has
not even been held”)].
Similarly, had the Delay Reduction Order actually been served on Mulcahy as
directed by the Court, Mulcahy would have known a conference should have been held

6

early in the case - well before he filed his motion to Amend - and, furthermore, that
APCHA was responsible for setting it. Similarly, if Mulcahy was apprised of C.R.C.P. 16.1
he would have known that, even if APCHA didn’t set a conference, the District Court was
mandatorily obliged to hold one. Instead, Mulcahy was in limbo waiting for a case
management conference that never was set and never was held. Indeed, the District
Court never ruled on Mulcahy’s motion to amend until it granted APCHA’s summary
judgment motion. [CF, p. 191-92 (summary judgment order addressing motion to
amend)].
II. APCHA GOES ON TO DISREGARD ALMOST EVERY OTHER PROCEDURAL
COMPONENT OF C.R.C.P. 16.1 AND THE DISTRICT COURT FAILS TO FOLLOW-UP
OR ENFORCE THEM
As if disregarding a case management conference wasn’t enough - which is
perhaps the most important procedural check the Colorado Supreme Court has
mandated for ensuring pro se rights are protected - APCHA went on to disregard almost
every other procedural safeguard in C.R.C.P. 16.1 as well. In particular, despite C.R.C.P.
16.1 specifically requiring upfront and early discovery in the form of initial disclosures,
APCHA never served discovery disclosures of any kind on Mulcahy. [See C.R.C.P.
16.1(a)(l)(k) & cmt. [8]]. Indeed, Mulcahy never received any discovery at all from
APCHA, regardless of form or type of discovery mechanism. [CF, p. 980 (Mulcahy
affidavit)].
Furthermore, Mulcahy’s filings, including his April 2016 motion to amend his
Answer, clearly evidences he is unaware of C.R.C.P. 16.1’s upfront and comprehensive
disclosure requirements as he states multiple times discovery has not even begun and

7

asks the District Court to allow commencement of discovery. [CF, pp. 165 If 13, 181, 254
(motion to amend stating “Defendant is filing the motion now, before the onset of
discovery”; reply for motion to amend “No discovery has yet occurred and no trial date
has been set”; motion to reconsider asking the District Court to “allow commencement of
discovery”)]. Mulcahy should have received APCHA’s initial disclosures almost a month
prior to his April 2016 filing.
Similarly, and compounding these errors, APCHA never filed the required
certificate of compliance attesting that it had complied with all of its obligations. [See
C.R.C.P. 16.1(h)]. The District Court never caught these issues - the lack of compliance
by APCHA, Mulcahy’s filings indicating he did not understand the C.R.C.P. 16.1
procedure, and C.R.C.P. 16.1’s mandate to set a case management conference - and,
instead, granted APCHA’s summary judgment motion that it had filed early in the case,
within 14 days of it becoming at issue.
Notably, these errors become even more critical when considering expedited
procedures, because of the limited rights involved, are more susceptible to due process
violations where they are not carefully followed. [ Whiteside v. Smith, 67 P.3d 1240, 1250
(Colo. 2003) (discussing how a limited and error prone procedure increases the risk of an
erroneous deprivation and, in turn, the risk of a due process violation)]. Indeed, the
Colorado Supreme Court has specifically recognized such dangers under C.R.C.P. 16.1 as
the rule explicitly mandates sanctions when obligations are not complied with. [See
C.R.C.P. 16.1 at cmt. [8] (“Because of the limited discovery, it is particularly important...
that parties honor the requirements and spirit of full disclosures. Parties should expect

8

courts to enforce disclosure requirements and impose sanctions for the failure to comply
with the mandate to provide full disclosures”) (emphasis added)].
Furthermore, APCHA’s discovery violations were not minimal as, and discussed
further below, the final NOV that APCHA based its exhaustion of administrative remedies
argument upon was issued almost a full month prematurely. Moreover, it was accelerated
and issued while APCHA’s employees knew that Mulcahy - an outspoken artist and Tea
Party member well known in Aspen’s small community for criticizing the local
government - was known to be traveling in place of his recently deceased father for
charity work in Africa. [CF, pp. 957-63, 971-74 (C.R.C.P. 60(b) motion discussing the
factual background and impact of APCHA’s failure to provide disclosures)].
Importantly, APCHA had amended its guidelines between the time period when
APCHA issued the NOV to Mulcahy and filing the lawsuit to shorten the NOV process and
do away with the regulations that indicated Mulcahy’s had been issued prematurely. [CF,
pp. 971-74]. Had APCHA complied with initial disclosures and served on Mulcahy, at a
minimum, the APCHA guidelines in effect when the NOV was issued, Mulcahy would
have been able to point to definitive regulations that APCHA violated in issuing the NOV.
[<See CF, pp. 1246 (APCHA guidelines)]. That is, Mulcahy would have had teeth for a due
process defense to PCHA’s exhaustion of administrative argument; that APCHA’s NOV
was invalid as it had administratively and improperly cut Mulcahy’s time to reply to
alleged deed restrictions in half, by almost 30 days, despite APCHA’s regulations
explicitly indicating otherwise. [CF, pp. 971-977].

9

Altogether, the overall deprivation of due process here is patent. APCHA
accelerated the final NOV issued to Mulcahy by almost a month knowing he was traveling
and would be unavailable to respond; then, when Mulcahy did, in fact, not respond,
APCHA used that non-response to assert Mulcahy failed to exhaust administrative
remedies and that the District Court could hear none of Mulcahy’s defenses; and then, in
state court, elected improperly into an expedited procedure, kept Mulcahy from being
advised of the specific procedures available to him through a case management
conference, and made no discovery disclosures on Mulcahy, including the APCHA
guidelines effective when the NOV was issued. APCHA got its wish and the District Court
entered summary judgment in its favor. Notably, that order was entered without Mulcahy
ever being afforded a hearing, at the administrative or trial court level, on whether he
was ever actually in violation of the deed restrictions. To date, Mulcahy has not received
a hearing; he has repeatedly asserted he was not in violation of the employment
restrictions.
After it was entered, Mulcahy appealed the original exhaustion of administrative
remedies judgment and, through working with counsel while it was pending, found out
about the numerous due process issues discussed above. Accordingly, Mulcahy promptly
filed his C.R.C.P. 60(b) motion to vacate the underlying judgment seeking to have a full
and fair opportunity to defend against APCHA’s claims. The District Court denied
Mulcahy’s C.R.C.P. 60(b) motion; Mulcahy appealed; and the District Court denied
Mulcahy’s subsequent motion to stay the judgment pending appeal. On appeal, and with

10
no explanation, the Court of Appeals also denied Mulcahy’s motion to stay the judgment
pending appeal.
Because of the importance of Mulcahy’s home - it was constructed personally by
Mulcahy and his now deceased father, represents a last remaining vestige of Mulcahy’s
relationship with his father, and was constructed to allow Mulcahy to take care of his
approximately 84 year old mother who now resides there with him - and in Mulcahy
being deprived of house and home, Mulcahy also filed a motion to stay the judgment in
the Colorado Supreme Court which was denied. Mulcahy’s petition for certiorari
argument follows below.
REASONS FOR GRANTING THE WRIT
I. CERTIORARI IS APPROPRIATE BECAUSE THIS CASE DEALS WITH IMPORTANT
MATTERS OF NATIONAL INTEREST - PARTICULARLY MINIMUM DUE PROCESS
STANDARDS FOR COURT PROCEDURES AND PRO SE PARTIES

The specific due process issues raised in this appeal have never been before
addressed by the Colorado Supreme Court. In particular, while Colorado appellate courts
have addressed procedural due process requirements for civil lawsuits in Colorado
courts, the vast majority of those cases deal with service and notice issues of the lawsuit
itself. [See First National Bank of Telluride v. Fleisher, 2. P.3d 706, 712 (Colo. 2000)
(discussing how lack of notice for a default judgment or initiation of legal proceeding can
constitute a serious procedural error requiring a judgment to be vacated for due process

11
violations); Rael v. Taylor, 876 P.2d 1210, 1224 (Colo. 1994) (discussing due process
requirements for notice by publication in a quiet title action)].
In contrast, the issues of this case deal with due process rights for the more
substantive aspects of a civil lawsuit. That is, minimum procedural rights in actually
litigating a lawsuit after initial service of it. For example, whether pro se parties have the
right to be apprised of the applicable procedural rules; whether a mandatory case
management conference is, in fact, mandatory; why the Colorado Supreme Court
specifically mandated a case management conference for pro se parties in the rules;
whether a complete disregard of discovery, especially under expedited procedures, can
constitute a due process violation; and whether C.R.C.P. 16.1, cmt. [8]’s mandate of
sanctions for discovery violations is actually mandatory.

Notably, undersigned counsel was unable to find any Colorado appellate cases
specifically addressing due process requirements under the unique procedures of
C.R.C.P. 16.1 and, similarly, whether a complete deprivation of discovery in civil court
procedures is sufficient to constitute a due process violation. Other states’ courts have
opined on this. [See E.S.R. v. Madison County Department ofHuman Resources, 11 So.3d
227, 234 (Ala. Civ. App. 2008) (“this court implied that the guarantee of procedural due
process entitles . . . the right to discovery, to cross-examine witnesses, and subpoena
power”); Wagner v. Wagner, 299 P.3d 170, 174 (Alaska 2013) (trial courts have a duty to
"inform a pro se litigant of the proper procedure for the action he or she is obviously
attempting to accomplish")].

12
Finally, not only does this case present an opportunity to give nationwide
guidance on minimum due process requirements for pro se civil litigants, but the specific
legal issues here also represent a risk of substantial and irreparable injury to Mulcahy as
well as other potential pro se litigants. More specifically, the impact of the due process
issues here has the potential to deprive Mulcahy, as well as his mother who resides with
him, of house and home. Not to mention a house and home that Mulcahy and his father
personally built. Moreover, if the due process violations here are left to stand, it will
effectively allow other plaintiffs to take advantage of pro se defendants by ignoring
important procedural safeguards and completely disregarding discovery disclosure
requirements. [-See Omer v. Shalala, 30 F.3d 1307, 1310-11 (10th Cir. 1994) (affirming the
vacating of an attorney’s fees judgment as void on due process grounds and going on to
chastise plaintiff’s counsel for taking advantage of a clear procedural due process error)].
Accordingly, Pro Se petitioner respectfully requests that this Court grant my
Petition for Writ of Certiorari or in the alternative, that an order be given for a settlement
in typical Aspen fashion: a ski off between the owner of Aspen Skiing, billionaire Jim
Crown (or APCHA’s executive director) against my Montana girlfriend, Shawn Cox.
AFFIDAVIT

I, Lee Mulcahy, swear in front of a notary the truth of the following:
1. We're in a world where the most powerful are able to commit the most egregious
crimes with impunity. Why? Because the law is exploited as a weapon to shield
and entrench power, and severely punish those who challenge it. In Aspen, the

13
law is being written by both an out of control quasi-judicial Aspen housing board
that brags about their 3000 units in a town with a population of 6,788 people and a
former local politician-cum-assistant Pitkin county attomey-cum-judge Chris
Seldin who is highly ambitious and is attempting to curry favor with power by
railroading my family from the home we built ourselves and have never been late
in taxes -all the while by breaking the law. It is the very definition of petty tyranny.
2. As a conservative Republican who believes in limited government, I ran for Mayor
in a two man race and was crushed by the Democrat Steve Skadron who then
used City Hall to criminalize my speech and art. Worse, he used the city housing
department (APCHA) to vindictively refuse to count any of the work I did on my
family’s self-built house or my work as an international artist who has exhibited in
the Aspen Institute, Aspen’s Red Brick for the Arts, Anderson Ranch, Carbondale’s
Council for the Arts, Berlin’s KW Institute of Contemporary Art, Beijing’s 798, and
East Africa’s most prominent museum, the Nairobi National.
3. The City Manager and APCHA Executive Director are recent arrivals to our
community from Ohio and both are very ambitious. Neither have much respect
for the Sheriff and our Western mythos of the Sheriff being the highest
representative of the law, bar none. While Skico has some influence, our Sheriff
told me this whole issue is a “witch-hunt” and that art should be counted as a
profession. APCHA employees are paid by the “City” of Aspen and under the City
Manager’s direction. APCHA board members were told by staff that an artist
“does not count as work.” This idea is entirely against the very ethos of Aspen

14
with its long artistic history. I realize that this court cannot take our case until all
appeals are finished in the lower courts; but I wanted to bring attention to the
flagrant corruption that has become systemic in our nation.
4. Just last week, America’s homegrown militia protested legally with guns in the
Michigan state capitol peacefully. Government seems incapable of hearing us
little people? We are tired of petty tyranny. As discussed above, APCHA broke
the law multiple times, multiple ways. My family has appeared before the
politicians that sit on APCHA with three unelected appointed members, two of
which are bankers and one who regularly fails to recuse himself from our case
(even though his employer and I are in litigation before this Supreme Court) in
both public and secret “executive” meetings on our house. Just so this Court is
aware, another District judge called out APCHA for violating our right to free
speech here. The Colorado District Court order that found APCHA in violation of
our constitutional rights is found here:
https://bloximages.newvorkl.vip.townnews.com/aspendailvnews.com/content/tnc
ms/assets/v3/editorial/6/bb/6bba9b90-df3d-lle9-a924-23c5e78d9751/5d8ad2faee335
.pdf.pdf Lastly, we took over 2000 signatures on a petition into the elected boards
asking for 15 minutes of their time on a public agenda. Thus far, it has fallen on
deaf ears.
5. Last night, wre had a wonderful dinner party where people from the neighborhood
spontaneously joined. The conversation centered around church, community and
the old Aspen - a place less corporate. Many of us have worked as “servants” to

15
the billionaires. There were wild stories of Donald Trump when he used to spend
time here skiing our beautiful mountains decades ago - stories about his kindness
and generosity you don’t often hear in the mainstream media There were also
stories of the mean spiritedness and greediness of the current owners of Aspen
Ski, billionaires from Chicago.
6. The two most powerful entities in Aspen are the Aspen Ski Company (“Skico”)
and the City of Aspen’s housing department, APCHA. I am currently in the
Supreme Court with Skico in a free speech case. Nearly ten years ago, I was
interrupted passing out a union flyer advocating a living wage; my 15 year
employment was immediately suspended while simultaneously being banned from
public lands under Skico’s purview. The case is on petition for certiorari. It is the
story of power and influence of billionaires on our judicial system for
Skico is owned by the powerful billionaire Lester Crown family that entertain
Supreme Court justices in their homes and tweet out pictures. An Aspen time
honored tradition is the ski off. My 84 year old mother, known locally as Mama
Sandy, challenged Lester Crown to a cross country ski off. Lester never
responded. Lester Crown admitted to bribing politicians.
7. We sent this letter to Jim Crown, Lester’s billionaire son who runs Aspen Skiing:
Dear Jim, I am grateful for the fantastic life I’ve had and the extraordinary Aspen
ski slopes on the public lands that you lease. As my boyfriend Lee Mulcahy
writes:
“These days our politicians are just boring blowhards; whereas, our
Revolutionary forefathers deeply respected a good fight. One of the
more famous duels back in the day occurred when Vice President Burr

1A

xw

fatally wounded former Secretary of Treasury Hamilton in a High Noon
shootout.
Taking inspiration from the latest Aspen Times’ Roger Marolt and Aspen
Daily News’ Lo Semple ski challenge: Why not a Jim Crown/Shawn Cox
ski off at the base of Aspen now?
Set up bleachers and the whole town can attend... you could use the
Little Nell suite above Ajax Tavern as a VIP section. Cheerleaders?
Would your wife Paula bring pom-poms and go all Dallas Cowboys for
you?
It’ll be hilarious: billionaire vs. bartender; man vs. woman; owner of
Aspen Ski & General Dynamics vs. peon; elite Chicago North Shore vs.
podunk Montana; Gulfstream flying Master of the Universe vs.
convertible driving blonde bombshell; President of Aspen Institute vs.
Wild West free spirited Libertarian; “limousine liberal” Democrat vs.
NRA “Don’t tread on me” tea partier; Obama’s self-proclaimed “best
Mend” vs. Trump’s biggest cheerleader; Deep State vs. the little people.
Or how about a ski moguls contest on Aspen Highlands Scarlett’s
instead of all this legal stuff?”
So come on, Mr. Crown, Independence Pass is open June 1st for skiing. The “Old
Guard” of Aspen would love it and it would be so community oriented. But if I
win the ski off, the Mulcahys’ get to keep the house they built.
Sincerely, Shawn Cox
8. I am grateful for many things, especially having an amazing Mom and Dad that
provided me an example to live by and a way through this corruption. Before my
Father passed, he started Africa Water Wells fwww.africawaterwells.orehi which
drills water wells at Kenyan public schools in the Rift Valley. My mom is
completing a book on their amazing love and journey.
9. Before he was fired as Basalt town attorney, current APCHA attorney Thomas
Fenton Smith III was investigated for dishonesty and conflict of interest by the
Colorado Supreme Court’s Attorney Regulation Counsel. He was cleared because

17
no employee of the town of Basalt would testify against him. The joke is that
lawyers are “paid liars.” In his last response to this Court in case No. 18-513
representing APCHA in their Brief in Opposition, APCHA’s attorney wrote on page
i, “Mulcahy did not raise any constitutional claims in the state courts.” Anyone
familiar with the case or the local newspapers knows that is a bald-faced lie.
Furthermore, I brought constitutional issues up in nearly every Pro Se brief.
10. This whole sad episode can simply be worked out by neighbors that live four
blocks apart, sit down, have a beer and agree to disagree. I fully admit to have
made mistakes and apologize; but our community suffers because of our ongoing
feud and billionaires’ arrogance. We all need to be able to laugh at ourselves;
howrever, to this day, after firing folk singer Dan Sheridan, the billionaire Crowns
banned his song “Big Money Ruins Everything” from all of their Aspen Skico
properties, including leased public lands.

Subscribed and sworn to me before this 7th day of May, 2020. I am duly authorized
under the laws of the State of Colorado to administer oaths.

Notary Public

18

KELBY FARIAS

My commission expires: \ \ |o)lpj QQ

NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID #20184046165
My Cororetesion Expires November26,2022

CONCLUSION
Wherefore, for the foregoing reasons, Mulcahy requests this Court grant his
petition for certiorari.

Respectfully submitted,
Lee Mulcahy, Pro Se
53 Forge Road, Aspen CO 81611
970.429.8707 or Ieemulcahvphd@gmail.com
May 7, 2020
Signature:

